                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: I04100035


               In the course of reviewing awards that included participant support in their bhdgets,
        we found that under one award' grant funds budgeted for participant support had been used
        to pay expenses for employees of the grantee institution, in violation of NSF rules,2and grant
        funds were used to pay for wine with a banquet, in violation of OMB rules.3 In response to
        our query, the awardee obtained retroactive approval frok the program officer to rebudget
        the funds used for the grantee employees, and provided documentation demonstrating that
        funds had not in fact been used for alcoholic beverages. Accordingly, this case is closed.




            NSF Grant Policy Manual (NSF 95-26) 7 618.1.a.
            OMB Circular A-2 1 7 1.2.



NSF OIG Fom~2 (11/02)
